2311 Douglas Street

E-Mail Address:
Omaha, Nebraska 68102-1214 VAL egal Briefs

 

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-849

KRISTANALEA DYROFF, Individually and
On Behalf of The Estate of Wesley Greer,
Petitioner,
v.
THE ULTIMATE SOFTWARE GROUP,
Experience Project, and Kanjoya, Inc.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 2970 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 17th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ie A
GENERAL MOTARY-State of Nebraska 4 2 / Le
che wntetin| Nonee 0. Loco Ondraohh Gh
. Notary Public Affiant

 

 
